NO.

 

IN THE

SUPREME COURT OF THE UNITED STATES

 

BOBBY JOHN KOBITO

Petitioner,
v.

UNITED STATES OF AMERICA

Respondent.

 

ENTRY OF APPEARANCE AND CERTIFICATE OF SERVICE

 

I, Lisa Costner, Assistant Federal Public Defender, Middle
District of North Carolina, having been admitted to practice before
the state and federal courts situated in North Carolina and the
Office of the Federal Public Defender for the Middle District of
North Carolina having been appointed to represent the Petitioner,
Bobby John Kobito, in the United States Court of Appeals for the
Fourth Circuit, pursuant to the provisions of the Criminal Justice
Act, 18 U.S.C. ยง 3006A, hereby enter my appearance in this Court

with respect to this Petition for Writ of Certiorari.

21
I further certify that today, September 14, 2021, as counsel
for Petitioner, I have served one copy of the Petition for Writ of
Certiorari (complete with Appendix) and Petitioner's Request to
Proceed in Forma Pauperis in the above-entitled case, by first
class mail, postage prepaid, upon the Solicitor General for the
United States Department of Justice, Tenth Street and Constitution
Avenue, Washington, D.C., 20530, and upon counsel for Respondent,
Terry M. Meinecke, Assistant United states Attorney for the Middle
District of North Carolina, 101 s. Edgeworth St. 4th Floor,
Greensboro, NC 27402 (Telephone 336-333-5351), the above being all

parties required to be served.

   

LISA S. COSTNER
Assistant Federal Public Defender
North Carolina State Bar No. 14308
251 N. Main Street, Suite 849
Winston-Salem, NC 27101

(336) 631-5278, Ext. 5172

Email: lisa_costner@fd.org

22
